No.

IN THE
SUPREME COURT OF THE UNITED STATES

MARK LEE WILKINSON
(Your Name)

— PETITIONER
i

VS.
SIOBHAN BURTLOW, and THE ATTORNEY GENERAL
FOR THE STATE OF COLORADO
RESPONDENT(S)
PROOF OF SERVICE
I, Mark Left Wilkinson

__________________ , do swear or declare that on this date,
, 2021, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS,
MOTION TO APPOINT COUNSEL, and PETITION FOR A WRIT OF CERTIORARI
on each party to the above proceeding or that party’s counsel, and on every other
person required to be served, by depositing an envelope containing the above documents
in the United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 calendar days.
The names and addresses of those served are as followsEllen Michaels
Assistant Attorney General
1300 Broadway, 9th Floor
Denver, CO 80203
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

20 Z/

(Signature)

i

